<html>
<title> - A REVIEW OF THE NUCLEAR REGULATORY COMMISSION'S LICENSING PROCESS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                  A REVIEW OF THE NUCLEAR REGULATORY 
                     COMMISSION'S LICENSING PROCESS

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON ENERGY

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             July 29, 2015

                               __________

                           Serial No. 114-35

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


       Available via the World Wide Web: http://science.house.gov
       
       
                               ___________
                               
                        U.S. GOVERNMENT PUBLISHING OFFICE
97-575PDF                      WASHINGTON : 2016                        
 
________________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1176617e517264626579747d613f727e7c3f">[email&#160;protected]</a>  
             
              
              
              
              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
F. JAMES SENSENBRENNER, JR.,         ZOE LOFGREN, California
    Wisconsin                        DANIEL LIPINSKI, Illinois
DANA ROHRABACHER, California         DONNA F. EDWARDS, Maryland
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
MO BROOKS, Alabama                   ALAN GRAYSON, Florida
RANDY HULTGREN, Illinois             AMI BERA, California
BILL POSEY, Florida                  ELIZABETH H. ESTY, Connecticut
THOMAS MASSIE, Kentucky              MARC A. VEASEY, Texas
JIM BRIDENSTINE, Oklahoma            KATHERINE M. CLARK, Massachusetts
RANDY K. WEBER, Texas                DON S. BEYER, JR., Virginia
BILL JOHNSON, Ohio                   ED PERLMUTTER, Colorado
JOHN R. MOOLENAAR, Michigan          PAUL TONKO, New York
STEVE KNIGHT, California             MARK TAKANO, California
BRIAN BABIN, Texas                   BILL FOSTER, Illinois
BRUCE WESTERMAN, Arkansas
BARBARA COMSTOCK, Virginia
DAN NEWHOUSE, Washington
GARY PALMER, Alabama
BARRY LOUDERMILK, Georgia
RALPH LEE ABRAHAM, Louisiana
                                 ------                                

                         Subcommittee on Energy

                   HON. RANDY K. WEBER, Texas, Chair
DANA ROHRABACHER, California         ALAN GRAYSON, Florida
RANDY NEUGEBAUER, Texas              ERIC SWALWELL, California
MO BROOKS, Alabama                   MARC A. VEASEY, Texas
RANDY HULTGREN, Illinois             DANIEL LIPINSKI, Illinois
THOMAS MASSIE, Kentucky              KATHERINE M. CLARK, Massachusetts
STEVE KNIGHT, California             ED PERLMUTTER, Colorado
BARBARA COMSTOCK, Virginia           EDDIE BERNICE JOHNSON, Texas
BARRY LOUDERMILK, Georgia
LAMAR S. SMITH, Texas
                            C O N T E N T S

                             July 29, 2015

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Randy K. Weber, Chairman, 
  Subcommittee on Energy, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     6
    Written Statement............................................     7

Statement by Representative Alan Grayson, Ranking Minority 
  Member, Subcommittee on Energy, Committee on Science, Space, 
  and Technology, U.S. House of Representatives..................     8
    Written Statement............................................     9

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................     9
    Written Statement............................................    10

                               Witnesses:

The Honorable Stephen Burns, Chairman, U.S. Nuclear Regulatory 
  Commission
    Oral Statement...............................................    11
    Written Statement............................................    13

Discussion.......................................................    26

             Appendix I: Answers to Post-Hearing Questions

The Honorable Stephen Burns, Chairman, U.S. Nuclear Regulatory 
  Commission.....................................................    38

            Appendix II: Additional Material for the Record

Document submitted by Representative Randy K. Weber, Chairman, 
  Subcommittee on Energy, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    50

 
                   A REVIEW OF THE NUCLEAR REGULATORY
                     COMMISSION'S LICENSING PROCESS

                              ----------                              


                        WEDNESDAY, JULY 29, 2015

                  House of Representatives,
                             Subcommittee on Energy
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 9:04 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Randy 
Weber [Chairman of the Subcommittee] presiding.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

    Chairman Weber. The Subcommittee on Energy will come to 
order.
    Without objection, the Chair is authorized to declare 
recesses of the Subcommittee at any time.
    Welcome to today's hearing titled ``A Review of the Nuclear 
Regulatory Commission's Licensing Process,'' and I recognize 
myself for five minutes for an opening statement.
    Good morning, Chairman Burns. Welcome. Welcome to this 
hearing on the Nuclear Regulatory Commission's licensing 
process as it relates to the Department of Energy's nuclear R&D 
programs. Today, we're going to hear from the Honorable Stephen 
Burns, Chairman of the U.S. Nuclear Regulatory Commission 
(NRC), regarding the extent to which the NRC and the DOE may 
actually cooperate to enable vital nuclear energy research. 
Chairman Burns, we're looking forward to your testimony.
    Over the next five minutes or so, I want to give you a 
quick overview of this Subcommittee's previous hearings that 
have actually led us to hold this hearing today. Last December, 
we heard from a startup company and an environmental 
institution explaining that tech companies trying to develop 
the next generation of nuclear technology need greater 
regulatory certainty to raise capital in today's market. They 
suggested that the DOE should use its national labs as a forum 
to allow private developers to carry out this work--interesting 
suggestion.
    In May, we heard from another tech company explaining that 
research infrastructure to provide versatile neutron 
irradiation capabilities is vital for universities and the 
next-generation tech companies to research new materials and 
fuels. We also heard from the Director of DOE's Nuclear Energy 
Innovation Hub that the increased capabilities to model and 
simulate nuclear reactions will allow researchers to eliminate 
assumptions, which can speed up and lower the cost to develop 
new technologies across the board.
    So what does all this mean? I'll keep it simple: we have 
the best engineers in the world that want to take on commercial 
risk and develop these next-generation technologies if we just 
give them the opportunity. These new technologies can do five 
things: number one, mitigate proliferation risk, which is 
important; number two, increase fuel utilization; number three, 
reduce waste yields; number four, achieve higher safety 
margins; and number five, reach higher levels of thermal 
efficiency.
    The United States is at its best when we provide a clear 
path for our for our technology innovators to do what they do 
best: find creative solutions to the world's challenges.
    So now I'll explain what we intend to discuss in today's 
hearing. This Committee has often found bipartisan support for 
the nation's open-access user facilities that provide unique 
capabilities for both basic and applied R&D. This is a 
particularly good model because the users ultimately take on 
whatever form of commercial risk they so choose while the 
government simply provides the infrastructure capability. The 
prospective DOE user facility we're considering today would be 
a fast-reactor-based neutron source. As a practical matter, the 
construction of such a facility will almost certainly require 
some form of technical assistance from the NRC, and that will 
be an interesting topic to explore.
    Another issue, and perhaps the most challenging question 
for the Subcommittee, is how can the federal government can 
make the process simpler for entrepreneurs to conduct 
experiments that would enable them to translate theories for 
alternative reactor concepts into reality. The NRC has a 
regulatory process for non-power reactors, but the time 
required to issue a license appears to have created somewhat of 
a barrier to investment. So this raises a couple of important 
questions relevant to our discussion today. Number one, can the 
DOE use its authority to host private developers to conduct 
novel experiments advancing next-generation nuclear technology? 
And number two, could the NRC benefit in any way by allowing 
its staff to provide technical expertise and gain firsthand 
knowledge of such reactor experiments?
    It is important that we work together to find solutions to 
these challenges. America cannot and must not lag behind our 
global competitors in this area of critical technology.
    Again, we want to thank Chairman Burns for his testimony 
today, and we look forward to hearing from you on the NRC's 
role in advancing nuclear energy for our nation.
    [The prepared statement of Chairman Weber follows:]

              Prepared Statement of Subcommittee on Energy
                        Chairman Randy K. Weber

    Good morning and welcome to today's Energy Subcommittee hearing on 
the Nuclear Regulatory Commission's licensing process as it relates to 
the Department of Energy's Nuclear R&D programs. Today, we will hear 
from the Honorable Stephen Burns, Chairman of the U.S. Nuclear 
Regulatory Commission (NRC), regarding the extent to which the NRC and 
DOE may cooperate to enable vital nuclear energy research. Chairman 
Burns, we thank you for your attendance today.
    Over the next five minutes or so, I want to give a quick overview 
of this Subcommittee's previous hearings that have led us to hold this 
hearing today.
    Last December, we heard from a startup company and an environmental 
institution explaining that tech companies trying to develop the next 
generation of nuclear technology need greater regulatory certainty to 
raise capital in today's market. They suggested that the DOE should use 
its national labs as a forum to allow private developers to carry out 
this work.
    In May, we heard from another tech company explaining that research 
infrastructure to provide versatile neutron irradiation capabilities is 
vital for universities and the next generation tech companies to 
research new materials and fuels. We also heard from the director of 
DOE's nuclear energy innovation HUB that the increased capabilities to 
model and simulate nuclear reactions will allow researchers to 
eliminate assumptions, which can speed up and lower the cost to develop 
new technologies across the board.
    So what does this all mean? I'll keep it simple: we have the best 
engineers in the world that want to take on commercial risk and develop 
these next generation technologies if we just give them the 
opportunity.
These new technologies can:

    <bullet>  Mitigate proliferation risk

    <bullet>  Increase fuel utilization

    <bullet>  Reduce waste yields

    <bullet>  Achieve higher safety margins

    <bullet>  And reach high levels of thermal efficiency

    The United States is at its best when we provide a clear path for 
our technology innovators to do what they do best - find creative 
solutions to the world's challenges. So now I'll explain what we intend 
to discuss today.
    This Committee has often found bipartisan support for the nation's 
open-access user facilities that provide unique capabilities for both 
basic and applied R&D. This is a particularly good model because the 
users ultimately take on whatever form of commercial risk they so 
choose while the government simply provides the infrastructure 
capability. The prospective DOE user facility we're considering today 
would be a fast-reactor based neutron source. As a practical matter, 
the construction of such a facility will almost certainly require some 
form of technical assistance from the NRC and that will be an 
interesting topic to explore.
    Another issue, and perhaps the most challenging question for the 
Subcommittee, is how the federal government can make the process 
simpler for entrepreneurs to conduct experiments that would enable them 
to translate theories for alternative reactor concepts to reality. The 
NRC has a regulatory process for non-power reactors, but the time 
required to issue a license appears to have created a barrier to 
investment. This raises several important questions relevant to our 
discussion today. Can the DOE use its authority to host private 
developers to conduct novel experiments advancing next generation 
nuclear technology, and could the NRC benefit in any way by allowing 
its staff to provide technical expertise and gain firsthand knowledge 
of such reactor experiments?
    It is important that we work together to find solutions to these 
challenges. America must not lag behind our global competitors in this 
area of critical technology.
    Again, I thank Chairman Burns for his testimony today, and I look 
forward to hearing from you on the NRC's role in advancing nuclear 
energy for our nation.

    Chairman Weber. I now recognize the Ranking Member, the 
gentleman from Florida, for an opening statement.
    Mr. Grayson. Thank you, Chairman Weber, for holding this 
hearing today, and thank you, Chairman Burns, for testifying 
this morning.
    The Nuclear Regulatory Commission has a vital role to play 
in ensuring the health and safety of the American people. The 
importance of this role in protecting health and the 
environment cannot be overstated.
    I look forward to learning more this morning about how the 
NRC is applying lessons learned during the Fukushima disaster 
in 2011, and lessons learned during the premature degradation 
of parts of the San Onofre Nuclear Generating Station in 2012, 
as well as similar incidents and accidents around the world.
    Today we'll discuss new, advanced nuclear technologies that 
address the safety, waste, and cost issues associated with 
previous generations of nuclear power plants. Given that the 
bulk of NRC's expertise and resources are focused on licensing, 
and ensuring the safety of, current light-water reactors, the 
path for developing, commercializing, and licensing newer 
technologies is less clear. Should a breakthrough in nuclear 
fusion be achieved in the next decade, the path toward 
licensing a fusion reactor is to be determined. I look forward 
to working with you, Chairman Burns, to address these issues as 
they arise.
    New technologies have a potential to change the world's 
energy landscape radically. They have the potential to meet our 
energy needs while significantly reducing the threat of climate 
disruption. We must give these new energy options the chance to 
prove themselves while also ensuring that they are not 
compromising our health or our safety in any way.
    Chairman Burns. I look forward to hearing your testimony, 
and I yield back the balance of my time.
    [The prepared statement of Mr. Grayson follows:]
              Prepared Statement of Subcommittee on Energy
                  Minority Ranking Member Alan Grayson

    Thank you, Chairman Weber for holding this hearing today, and thank 
you to Chairman Burns for testifying this morning.
    The Nuclear Regulatory Commission has a vital role to play in 
ensuring the health and safety of the American people. The importance 
of its role in protecting the environment, particularly in a time where 
recent events have led some to question the future of nuclear power, 
cannot be overstated. I look forward to learning more this morning 
about how the NRC is applying lessons learned during the Fukushima 
disaster in 2011, and lessons learned during the premature degradation 
of parts of the San Onofre Nuclear Generating Station in 2012, as well 
as similar incidents around the world.
    Today, I hope you will discuss the potential for new, advanced 
nuclear technologies that address the safety, waste, and cost issues 
associated with previous generations of nuclear power plants. Given 
that the bulk of NRC's expertise and resources are focused on 
licensing, and ensuring the safety of, current light water reactors, 
the path for developing, commercializing, and licensing newer, and 
potentially far superior, technologies is less clear. Should a 
breakthrough in nuclear fusion be achieved within the next decade, the 
path toward licensing a fusion reactor is murky, at best.
    I look forward to working with you, Chairman Burns, to address 
these issues as they arise. Advanced fission, and especially fusion 
energy, technologies have the potential to radically change the world's 
energy landscape. They have the potential to meet our energy needs 
while significantly reducing the threat of climate disruption. We must 
give these new energy options the chance to prove themselves while also 
ensuring that we are not compromising the health and safety of our 
citizens in any way.
    Thank you, again, for being here, Mr. Burns. I look forward to 
hearing your testimony, and I yield back the balance of my time.

    Chairman Weber. Thank you, Mr. Grayson, and I recognize the 
Chairman of the full Committee, the gentleman from Texas, Mr. 
Smith.
    Chairman Smith. Thank you, Mr. Chairman.
    Today's hearing will examine opportunities for advances in 
nuclear fission and fusion energy technologies. We will hear 
from the Chairman of the U.S. Nuclear Regulatory Commission, 
Stephen Burns, who will provide the regulatory perspective on 
matters of policy for the next generation of nuclear energy 
technology.
    The Nuclear Regulatory Commission is an independent 
regulatory agency that licenses and regulates America's 
civilian nuclear material and technology. The NRC was 
established in 1974 when Congress separated the supportive 
nuclear research and development aspects of the Atomic Energy 
Commission from its regulatory side.
    Currently, the Department of Energy supports nuclear R&D to 
advance nuclear science while the NRC licenses new technologies 
as the private sector brings them to the market.
    Today we will get a better understanding of how DOE can 
more effectively advance innovation in nuclear energy and align 
its R&D priorities to fill gaps where the NRC is not permitted 
to do so.
    Nuclear energy provides reliable, zero-emission power. This 
technology represents a great opportunity for innovation to 
increase our nation's economic prosperity and global 
competitiveness. Yet the status quo is not working to bring new 
reactor concepts to the market. One challenge is that the NRC's 
licensing mechanism for alternative reactor concepts is not yet 
fully developed. This is not necessarily a fault of the NRC, as 
it must first oversee the safety of its licensees, which fund 
90 percent of the Commission's budget. The NRC's strict mission 
focus has helped the U.S. nuclear industry attain one of the 
safest working environments in the world.
    The Committee's responsibility, however, is to look beyond 
today. We must search for opportunities where our nation's R&D 
can help make our future brighter.
    The DOE national laboratories provide vital capabilities 
for the private sector to invest in innovative energy 
technologies. This includes its open-access user facilities, 
which are one-of-a-kind machines that allow researchers to 
investigate fundamental scientific questions. These facilities 
enable a wide array of researchers from academia, defense, and 
the private sector to develop new technologies without favoring 
one type of design. This represents a better approach than 
simply picking winners and losers through energy subsidies.
    DOE's labs also provide the fundamental research 
capabilities that lead to scientific publications or 
proprietary research. For nuclear energy R&D, this research is 
especially challenging because of the inherent regulatory 
burden that comes with using nuclear material. For this reason, 
the DOE and NRC should cooperate where appropriate to ensure 
that the R&D investments we make today will reach the market 
for the benefit of all Americans tomorrow.
    Thank you, Mr. Chairman, and I yield back.
    [The prepared statement of Chairman Smith follows:]

      Prepared Statement of Full Committee Chairman Lamar S. Smith

    Today's hearing will examine opportunities for advances in nuclear 
fission and fusion energy technologies.
    We will hear from the Chairman of the U.S. Nuclear Regulatory 
Commission, Stephen Burns, who will provide the regulatory perspective 
on matters of policy for the next generation of nuclear energy 
technology.
    The Nuclear Regulatory Commission (NRC) is an independent 
regulatory agency that licenses and regulates America's civilian 
nuclear material and technology. The NRC was established in 1974 when 
Congress separated the supportive nuclear research and development 
(R&D) aspects of the Atomic Energy Commission from its regulatory side. 
Currently, the Department of Energy (DOE) supports nuclear R&D to 
advance nuclear science while the NRC licenses new technologies as the 
private sector brings them to the market.
    Today, we will get a better understanding of how DOE can more 
effectively advance innovation in nuclear energy and align its R&D 
priorities to fill gaps where the NRC is not permitted to do so. 
Nuclear energy provides reliable, zero-emission power. This technology 
represents a great opportunity for innovation to increase our Nation's 
economic prosperity and global competitiveness.
    Yet the status quo is not working to bring new reactor concepts to 
the market. One challenge is that the NRC's licensing mechanism for 
alternative reactor concepts is not yet fully developed. This is not 
necessarily a fault of the NRC as it must first oversee the safety of 
its licensees, which fund 90 percent of the Commission's budget. The 
NRC's strict mission focus has helped the U.S. nuclear industry attain 
one of the safest working environments in the world.
    This Committee's responsibility, however, is to look beyond today. 
We must search for opportunities where our Nation's R&D can help make 
our future brighter. The DOE national laboratories provide vital 
capabilities for the private sector to invest in innovative energy 
technologies. This includes its open--access user facilities, which are 
one-of-a-kind machines that allow researchers to investigate 
fundamental scientific questions.
    These facilities enable a wide array of researchers from academia, 
defense, and the private sector to develop new technologies without 
favoring one type of design. This represents a better approach than 
simply picking winners and losers through energy subsidies.
    DOE's labs also provide the fundamental research capabilities that 
lead to scientific publications or proprietary research. For nuclear 
energy R&D, this research is especially challenging because of the 
inherent regulatory burden that comes with using nuclear material.
    For this reason, the DOE and NRC should cooperate where appropriate 
to ensure that the R&D investments we make today will reach the market 
for the benefit of all Americans tomorrow.
    Thank you Mr. Chairman and I yield back.

    Chairman Weber. Thank you, Chairman.
    Our witness today is the Honorable Stephen Burns, Chairman 
of the U.S. Nuclear Regulatory Commission. Mr. Burns served as 
General Counsel of the NRC from May 2009 until April 2012 after 
having served as the NRC's Deputy General Counsel from 1998. 
Mr. Burns received his bachelor's degree in German magna cum 
laude from Colgate University and his J.D. from George 
Washington University. Mr. Burns, you are now recognized for 
five minutes.

           TESTIMONY OF HON. STEPHEN BURNS, CHAIRMAN,

               U.S. NUCLEAR REGULATORY COMMISSION

    Mr. Burns. I appreciate the opportunity to appear before 
you today to discuss the NRC's licensing policies as they might 
apply to current and prospective Department of Energy nuclear 
energy research and development programs.
    In January, the NRC marked its 40th anniversary as the 
independent agency in the United States responsible for 
licensing and regulating civilian uses of radioactive materials 
and nuclear facilities to ensure the production--protection--
excuse me--of public health and safety, the common defense and 
security and the environment.
    The NRC's regulatory program has been substantially 
strengthened over the years based in part on what we have 
learned from both domestic as well as international operating 
experience. Staff has made significant progress in preparing to 
review design certification applications for small modular 
reactors, one of which is expected to be submitted in late 
2016.
    And finally, the NRC is taking initial steps to prepare for 
the review and licensing of non-light-water reactor designs, 
which are the subject and focus of today's hearing.
    Our cooperation with the Department of Energy on topics of 
mutual interest dates back to the Energy Reorganization Act of 
1974 when the old Atomic Energy Commission was split into two 
separate organizations, the Energy Research and Development 
Administration, which later became part of the Department of 
Energy, and the NRC.
    The skills and experience base of NRC and DOE are highly 
complementary. The mandate to correct--or to conduct R&D 
programs including civilian nuclear energy research, 
development and demonstration ensures that the Department of 
Energy has a deep technical capacity in a wide range of nuclear 
technologies. The NRC as an independent body focuses on 
licensing and oversight of commercial nuclear power operations 
to ensure public health and safety.
    The mutually beneficial relationship across the nuclear 
plant lifecycle pays dividends to both agencies. DOE has been a 
key technical partner as the NRC moves toward gaining expertise 
in non-light-water technologies and looks to adapt its 
licensing framework.
    The statutory authorities governing cooperation between NRC 
and DOE are well established. Our role in a project located at 
a DOE site is shaped by the purposes and function of the 
proposed project. Depending on the specific goal and purpose of 
the project, NRC could have licensing and regulatory authority 
over some types of facilities that are envisioned, for example, 
in H.R. 1158. For example, the Atomic Energy Act currently 
authorizes the NRC to issue licenses for production and 
utilization facilities for commercial purposes or licenses for 
research and development purposes.
    The NRC has substantial experience in reactor licensing 
processes that are well established and which have been applied 
to an array of reactor technologies. We've determined that our 
current reactor design or licensing regulations are adequate 
for conducting reviews of advanced reactor applications. 
However, we recognize the potential gaps in understanding of 
acceptance criteria for both the NRC staff and applicants.
    To better understand the opportunities for most efficiently 
adapting the current regulatory framework for non-light-water 
reactors, the agency has reviewed our licensing processes and 
infrastructure. We had a report in 2012 to Congress on advanced 
reactor licensing, and it included such recommendations as the 
need for additional research in areas such as materials and 
structural analysis, the need for appropriate computational 
tools for use in application reviews, and ensuring that 
appropriately trained and experienced staff are able to perform 
the reviews. We'll continue to develop our capability to 
evaluate non-light-water designs that may proceed to commercial 
maturity at a pace consistent with appropriated resources and 
Congressional direction.
    We don't favor one particular technology over another, but 
through open communication with the non-light-water community 
and developers, and with the DOE, we're able to better optimize 
our planning and resources to conduct licensing reviews when a 
complete and technically sufficient application is presented 
for our consideration. We'll continue to work closely with DOE 
within our respective legal mandates to look for additional 
joint opportunities to make overall reactor development and 
licensing processes as transparent and as navigable as possible 
to reactor designs and potential applicants. In fact, we plan 
to hold a series of public workshops with the DOE starting this 
September to engage further with the designers, applicants, 
industry groups and the public.
    In closing, I'll note that the NRC remains a technically 
adept and widely respected independent regulator domestically 
and internationally. Drawing on our experience and licensing 
processes to protect public health and safety, we have taken a 
number of steps to prepare ourselves for the future while we 
also recognize the important and complementary role the DOE 
plays.
    Thank you for the opportunity to appear before the 
subcommittee today, and I look forward to your questions. Thank 
you.
    [The prepared statement of Mr. Burns follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
           
    Chairman Weber. Thank you, Chairman Burns.
    You said the NRC was 40 years old in 1975?
    Mr. Burns. Yes. We came into existence at the beginning of 
1975.
    Chairman Weber. January 1975?
    Mr. Burns. We have a 40th birthday this year.
    Chairman Weber. Well, you don't look that old. I just want 
to--interestingly enough, on this day in history, in 1957, the 
IAEA was formed, so it's a very apropopriate date for us to 
have this testimony.
    Chairman Burns--I'm going to recognize myself for five 
minutes for questions.
    Chairman Burns, I believe you said that the NRC would not 
have jurisdiction over a DOE-owned and -operated user facility 
such as a proposed fast-reactor-based neutron source under 
consideration in this Committee. That said, if the DOE is to 
build this prospective facility under its own authority, my 
notes are saying it may require technical review from the NRC, 
and of course, we believe that it would, and can you elaborate 
on the extent to which the NRC would be able to provide that 
technical assistance to the DOE for such a project as this?
    Mr. Burns. Certainly. As you say, with the assumption that 
it's a DOE facility or created and constructed on behalf of the 
Department of Energy, we're still able to provide technical 
assistance and support to the Department. It's similar--it 
would be similar to what we do in the naval reactors area. We 
provide naval reactors reviews of new submarine reactor 
designs, and not only submarines, I think more recently an 
aircraft carrier design. So under basically reimbursable 
agreements, we will look at those technologies and can provide 
that kind of assistance. It also in some respects can benefit 
us to the extent that in the future, we may have similar type 
technology come before us in our own licensing role. We can 
gain experience that way.
    Chairman Weber. Well, you would be on the cutting edge or 
the leading edge, as it were, of watching that kind of 
technology develop.
    You pointed out that if data collected from this facility 
is used to make the safety case in a future license 
application, the NRC would need to ensure that its Quality 
Assurance Program is followed. It makes sense to me that you 
would need to independently verify data if it's used to prove 
the safety for a product once it's commercial. So my question 
is this: Could this potential facility be helpful to the 
Commission for that very purpose, for verifying that physical 
data?
    Mr. Burns. I think it could be, and again, I think the 
point I was trying to make in the testimony was that when you 
do the evaluations and the testing--and the Department would be 
doing it at a high-quality level. I don't mean to cast any 
aspersion. But again, if you're looking for transferability 
from the Department's context and then ultimately to, say, a 
commercial context, the more you have conformity or harmony 
between the two organizations, the more useful I think in the 
long term the outcomes or the information you glean will be.
    Chairman Weber. In layman's terms, if you actually watch 
that process unfold, understand the steps it took to get there 
and the verifiability of that data, then that would actually 
help the NRC in its role, wouldn't it?
    Mr. Burns. Yes. It's not--and it's not only the being able 
to observe or see the results but it's also the processes 
through which the results are obtained.
    Chairman Weber. Sure. You explained in your opening 
testimony, Chairman Burns, that the NRC's role in the project 
at a DOE site would rest on the purpose and function of the 
proposed project. So if I understand your testimony correctly, 
DOE may enable private developers to construct and operate 
research-oriented reactors for purposes such as proving 
concepts by reducing theory to reality, provided two things are 
true: number one, DOE would in fact have to own that 
experimental reactor, and number two, that experimental reactor 
may not be used as a basis for commercial power technologies. 
Can you explain how you arrived at the conclusion that if the 
experimental reactor itself cannot be privately owned, even if 
its purpose is solely to improve new technology and increase 
practical knowledge at a DOE site?
    Mr. Burns. I think--again, I hope I can make this clear. 
Again, if it's--if the project is on or--on behalf of or for 
the benefit of the Department of Energy within its authorities, 
it's not licensed by the NRC. To the extent if you had--I think 
maybe an example might help. If you had a private company 
essentially creating on a DOE site a commercial venture, that 
would be licensable by the NRC. That's what I'm intending to 
say.
    Chairman Weber. Sure. I got you.
    Okay. Well, I'm out of time here so I'm going to yield to 
the gentleman from Florida.
    Mr. Grayson. Thank you.
    At two recent hearings held by this Subcommittee, witnesses 
testified that the NRC's standard process for licensing a new 
commercial-scale nuclear reactor would be too costly and time-
consuming for early-stage pre-commercial demonstrations of 
advanced reactor concepts to move forward. So let's start with 
the threshold question, which is whether those processes 
actually would apply in that situation.
    Mr. Burns. Well, we have a licensing process that has been, 
in some forms has actually been in place since the earliest 
days of nuclear--implementation of nuclear technology, even 
under the Atomic Energy Act. The NRC moved to what we call a 
one-step licensing, which is being used by some of the newer 
plants that are under construction today about 25 years ago, 
which also provided for design certification. So we have the 
basic processes. I think the processes that can get through 
would apply and would work in these circumstances. I think 
where we're looking forward and talking with DOE as well is the 
areas in terms of where you're moving from light-water 
technology to the advanced technologies, and we need to 
understand how do our acceptance criteria fit that? Do you need 
exemptions from that? Are there other considerations? So that's 
the primary area where we've been focused, and I think trying 
to look forward we need to focus.
    Mr. Grayson. Well, the criticism specifically was that the 
process would be too costly and time-consuming for these 
advanced reactor concepts even to move forward. Do you regard 
that as a criticism that's well taken or far-fetched?
    Mr. Burns. I think probably I'm somewhere in the middle, 
probably more on the notion--again, the notion is, I think we 
know how to license nuclear power plants in this country. Where 
we--I think where we stand ready and able is to engage with 
potential developers who are interested in the new technologies 
to understand the issues they have, to understand--and so they 
also understand what they need to do in order to meet the 
safety requirements that the agency sets, and again, I think 
how that can happen is early engagement with the agency in 
terms of understanding what some of those issues are.
    So again, when I've looked at--you know, my understanding 
in terms of an application, the application costs in terms of 
what it costs to go to the NRC is somewhere on the order of 
$45-70 million. That's the application fee. Now, that's a small 
part of their development costs. What we can do again, I think, 
is engage and assure that they're not off track or that they're 
on track in terms of the safety requirements that we require 
them to meet.
    Mr. Grayson. All right. So you addressed the cost element. 
Let's talk about the time element. These are capital-intensive 
projects. The money is borrowed in advance before any 
electricity or power is generated. There are interest payments 
in the meantime. What kind of time commitment are people 
looking at when they go ahead and seek a license like this?
    Mr. Burns. Again, depending again whether a license or the 
certifying the design itself, which then can be referenced in 
other licenses. In both circumstances, I think based on my 
consultation with my staff, we think we could that on the order 
of five years. That's probably a little longer than our 
objective on current light-water technologies. It was more like 
about 3-1/2 years. But given that they're new, I think it's 
probably safe to say on the order of the five years.
    Mr. Grayson. Do you see any possibility of dramatically 
reducing either the cost or the time involved?
    Mr. Burns. Well, again, I think as experience is gained, I 
think the timing could be reduced, but there are in addition to 
meeting or showing that you demonstrate conformance to the 
safety standards also requirments to go through the National 
Environmental Policy Act processes, again, I think for new--the 
current technology for new reactors, we set, I think about a 3-
1/2-year goal.
    Mr. Grayson. Thank you, Mr. Chairman. I yield.
    Chairman Weber. I thank the gentleman.
    The Chair now recognizes the gentleman from California, Mr. 
Rohrabacher.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman, and can 
I ask you, how many employees does your agency have?
    Mr. Burns. It's a little under 3,700 currently.
    Mr. Rohrabacher. Okay, 3,700. And these are highly skilled 
and educated people, I imagine?
    Mr. Burns. Yes, we have, primarily, you know, our technical 
and yes, it's very, very highly skilled in a number of 
engineering as well as scientific disciplines.
    Mr. Rohrabacher. Okay, and what's your budget for--annual 
budget?
    Mr. Burns. The current budget is about $1 billion. Actually 
over the next few years I expect that to be smaller, in part 
because the number of new reactors that we originally 
anticipated, say, ten years ago are not--the volume is not 
going to be there, so that's the primary reason I'd say we're 
going down.
    Mr. Rohrabacher. Are your folks being paid enough to 
attract the type of high-quality people you need?
    Mr. Burns. Yes, I think so. We have--in terms of the civil 
service laws and provisions, we are able to pay well. We get 
good experts that have--sometimes will have industry experience 
but also academic experience, and I'm very proud of our staff.
    Mr. Rohrabacher. You know, there's a lot of, especially on 
our side of the aisle where we complain about bureaucracy, and 
let me just note that, I mean, I use that joke myself: 
Bureaucracy is the most effective method known to man of 
turning pure energy into solid waste, all right?
    But I think that's really unfair of us because quite often 
it's not the bureaucracy, it's not the people, it's the system 
that is set up and the criteria that they have to work from, 
and I think it's very clear to all of us that we've got a 
problem in this country with the development of the next 
generation of nuclear energy. We are now approving or we're 
involved with approving and putting into place nuclear reactors 
that are based on 65-year-old technology. Light-water reactors 
are 65 years old, and they're dangerous. The environmental 
movement years ago when we first proposed nuclear reactors were 
right in the sense that with this type of reactor, we have to 
deal with the waste problem and the potential of nuclear--of 
some radiation leaking from the system. Our newest systems, I 
guess, were sold to Japan, and look at the catastrophe that it 
caused there? People say oh, this could never happen with these 
new light-reactors. Well, it did because light-water reactors 
are inherently dangerous, and some of us are dismayed--I am 
dismayed by the fact that we have not gone on to even produce 
the prototypes of the next generation, and there's something 
wrong with our system. There's something wrong with what we 
have done to set up the methodology of bringing that new 
technology in.
    Your agency is playing a part in that, and I don't know--we 
have to change the system in a way that we can be the leaders 
in progress on this very important technology for mankind. 
Nuclear energy had so much promise, and now we know its dangers 
as well, but we know that there's possibilities of--let me--I'm 
sorry, Mr. Chairman. I could go on for a while. I've got some 
specific questions on this.
    The--right now, do you believe that--I'm looking at thorium 
reactors, pebble-based reactors, high-temperature gas-cooled 
reactors, and even there's--Lockheed even has a fusion, a small 
fusion reactor. We have so many options but yet none of them 
are moving forward into the market and being put to use, and 
instead, we're still improving light-water reactors. Something 
is terribly wrong with the system.
    Chairman Weber. Will the gentleman yield?
    Mr. Rohrabacher. I certainly will.
    Chairman Weber. That's why we're having this hearing today.
    Mr. Rohrabacher. That's right.
    Chairman Weber. I yield back.
    Mr. Rohrabacher. Well, let me just note, I would hope that 
we can try to restructure, that we have some positive things 
that we can come up with today and working with you, not just 
today but in the days ahead to restructure this system so that 
people--so that the business community can commercialize and at 
least we can come up with--and the development community can 
come up with the prototypes that will give us a chance for a 
future use of nuclear energy that's safe for our people, and 
thank you very much for holding this hearing, Mr. Chairman.
    Chairman Weber. I thank the gentleman.
    The Chair now recognizes the gentleman from Colorado, Mr. 
Perlmutter.
    Mr. Perlmutter. Thanks, Mr. Chair, and thanks to Mr. 
Rohrabacher. Honestly, this is an area where I'm new to this 
subject and new to this Committee, so I'm going to have some 
very basic questions for you.
    My district includes Rocky Flats, you know, where we 
produced a lot of plutonium triggers over the years. North of 
us, we have a mothballed long time ago plant called Fort St. 
Vrain.
    Mr. Burns. That's correct.
    Mr. Perlmutter. And so I'm coming at it from that point of 
view, so I'm going to ask just sort of basic questions. How 
many nuclear plants do we have in the United States today?
    Mr. Burns. Right now, we have 99 operating nuclear power 
plants in the United States. I'd expect by the end of the year, 
early next year, a 100th will come online. That's the TVA's 
Watts Bar 2. And there are, just to expand a little bit for 
your benefit----
    Mr. Perlmutter. Yes.
    Mr. Burns. There are four other plants under construction 
in South Carolina and--two in South Carolina and in Georgia 
currently.
    Mr. Perlmutter. And how many license applications do you 
have pending?
    Mr. Burns. I might have to give you that for the record. I 
think we have on the order of about seven, but I might be off 
by one or two there. We have--for example, we recently 
authorized a license for DTE Electric near Detroit. We expect 
to have a hearing late this year on South Texas 3 and 4 in 
Texas, and there are a couple others as well.
    Mr. Perlmutter. How long would you say the average license 
application runs today? I mean, I know it has varied. Sometimes 
it's taken forever and sometimes it's been quicker. What are 
they running today?
    Mr. Burns. Well, again, I think our objective is for the 
license, for the combined license for the new plants is that we 
run about 3-1/2 years, so about 42 months. We have a required 
hearing----
    Mr. Perlmutter. I just want the--I'm not condemning that. I 
remember----
    Mr. Burns. No, no, no.
    Mr. Perlmutter. I had Rocky Flats, okay? I have legacy.
    Mr. Burns. Oh, yes.
    Mr. Perlmutter. I understand the public safety nature of 
the Commission, so I'm not----
    Mr. Burns. Right.
    Mr. Perlmutter. --condemning that. I want you to do the 
right thing and do a good job.
    Mr. Burns. But that's why I'm saying, it's about a 42-month 
or 3-1/2-year objective to complete the licensing for a 
combined license that we issue now. That would assume that you 
have a certified design. So you take the design, say, a 
Westinghouse design. You reference it in the combined license. 
So it takes about that. Some of those, as you say, are longer.
    Mr. Perlmutter. Construction of a plant, how long does that 
usually run?
    Mr. Burns. I'm trying to think. The current experience I 
think with the Vogtle plant, it's been about--they've been 
under--it'll be about six to eight years.
    Mr. Perlmutter. I mean, these are major----
    Mr. Burns. Yes, it's a major----
    Mr. Perlmutter. --construction.
    Mr. Burns. And they've had some construction difficulties 
on the way so they were responsible about addressing those, so 
that's provided some delay.
    Mr. Perlmutter. All right. Now to get towards Mr. 
Rohrabacher's questions. So can you tell me--and I know--I'm a 
lawyer, you're a lawyer, and you know, maybe you would want an 
engineer but my guess is, you know this. So can you explain to 
me the difference between heavy water, light water, and some of 
the new technologies that he was just going through--thorium 
and gas plants and whatever.
    Mr. Burns. All right. I'm going to be a little challenged 
on that, but basically the newer technologies, say, thorium is 
another, would be used instead of uranium, for example, as a 
fuel. They may be cooled by different means. You have the 
molten salt reactor, you have the high-temperature gas reactor. 
The technologies do different things. You know what? I would be 
pleased to have the technical staff, give you maybe a brief 
rundown or something, maybe a sort of shortened form.
    Mr. Perlmutter. But light water would----
    Mr. Rohrabacher. I will see you after work for a drink 
and----
    Mr. Perlmutter. Okay. I'll see you in the gym.
    Light water versus heavy water, and then I'll yield back.
    Mr. Burns. Yes, and the heavy water, for example, 
Canadians, the CANDU reactor uses heavy water. It's--again, 
it's the chemical characteristic of the water itself that's 
used. As I say, I'm starting to get a little bit out of my 
comfort zone.
    Mr. Perlmutter. I'm happy to meet with you and anybody 
else.
    Mr. Burns. Yes.
    Mr. Perlmutter. That would be great.
    And I yield back to the Chair. Thank you very much.
    Chairman Weber. Boy, how would you like to be a fly on the 
wall in that meeting?
    The gentleman from Illinois, Mr. Hultgren, is now 
recognized for five minutes.
    Mr. Hultgren. Thank you, Chairman.
    Thank you, Chairman Burns, for being here today. Nuclear 
energy is very important for my home state in Illinois, and 
with increasing burdensome regulatory regime being proposed by 
EPA, nuclear energy is still the only viable zero-emission-
based-load power source with arbitrary cups that our states are 
being forced to implement. Just maintaining our current fleet 
is vital to be able to hit these mandates. But there's more we 
could be doing to put America in a place to lead the world and 
the next generation of advanced reactors. Where are our 
reactors go, our regulatory structure goes with them. We need 
to be aware of this and we need to get a foothold in our 
nations if we'll be able to export these technologies in the 
future. For this to happen, we need a regulatory structure that 
seamlessly allows for the informed licensing of these 
facilities down the road.
    Chairman Burns, I appreciate your commentary on my 
legislation, and I do have some questions about where the line 
is drawn between the DOE and the NRC authority to regulate a 
facility. You said in your written testimony, and I quote, that 
``NRC would not have regulatory authority over reactors located 
in DOE-owned facilities that are used for the purpose of 
collecting data for research, testing of materials, or testing 
of fuels.''
    At the same time, you say you would have authority over a 
facility that is operated in a manner for the purpose of 
demonstrating the suitability for commercial application of a 
power generation facility. I wondered, where is the line drawn 
if we are researching new materials? Does it become NRC 
jurisdiction if they are just trying to proof-of-concept work 
for something down the road? At the early stage we are 
certainly trying to establish the properties of new material 
and fuel but when does NRC consider this research to be for 
commercial application?
    Mr. Burns. Thank you for the question. Again, we're 
probably at some of those sort of gray areas where the line is, 
and probably in looking--you know, if we're getting to that 
point, I think that would benefit us and I think also the 
Department's understanding what the purposes of the project 
are.
    Again, the bright line, as you say, would have to be if 
it's basically a contractor to DOE for the benefit of DOE. I'm 
phrasing it that way because that's clearly on the DOE side.
    Again, where it--what I don't want to leave I think is the 
impression that any possibility that it may have an ultimately 
translated into a commercial benefit down the line means 
necessarily that it's--you know, it's NRC's jurisdiction. 
That's where I think we have to look carefully what it is.
    Again, the easier--perhaps the easier example is if the 
demonstration plant is--DOE is providing the land for the 
demonstration plant, it is being hooked to the grid and that 
type of aspect, that I believe would be our jurisdiction.
    I think what it is, this may be one of these things where 
we have to look at it carefully in order to give a complete 
answer, I think.
    Mr. Hultgren. Okay. Well, if we could maybe follow up on 
that some more?
    Mr. Burns. Sure.
    Mr. Hultgren. There is concern there, and we want to make 
sure----
    Mr. Burns. Yes, and I----
    Mr. Hultgren. --we do that well.
    Let me move on. My time's going by fast. Does NRC consider 
things like the time value of money or opportunity costs of 
lost development in the United States when forming regulation?
    Mr. Burns. Our regulatory scheme is based primarily on the 
Atomic Energy Act, which says we need to establish as a 
baseline adequate protection of public health and safety and 
common defense and security, and at that point you have to 
reach that threshold. Above that threshold we do in effect 
include cost-benefit analysis in terms of assessing whether 
above the minimum required for safety, is there a benefit, is 
there a substantial additional safety benefit for additional 
things. So in that respect, beyond the base requirements, we 
would consider in fact costs and benefits of additional 
regulation.
    Mr. Hultgren. Let me wrap up one last question. How does 
the NRC anticipate changes in technologies so that the 
regulatory process can be responsive to innovation, and tied to 
that, does the NRC funding structure limit the Commission's 
ability to accommodate innovation?
    Mr. Burns. The way we anticipate potential new designs is 
by staying in communication with Department of Energy--we have 
a good, cooperative relationship with the Department of 
Energy--but also hearing from potential designers and potential 
applicants. We encourage them to come and meet with us to lay 
out what their plans are, and hearing from the industry what 
their expectations are, and the second part of your--I'm sorry. 
I forgot the second part of your question.
    Mr. Hultgren. Well, it's--my time's expired, so we can 
follow up maybe with other things.
    Mr. Burns. I'm sorry.
    Mr. Hultgren. No, that's fine. I just was wondering about 
the NRC funding structure, does it limit the Commission's 
ability to accommodate innovation. So it's 90 percent funded by 
licensees. I wondered if that limit the Commission's ability to 
accommodate innovation. We may follow up with written questions 
if that's all right.
    Mr. Burns. Okay.
    Mr. Hultgren. With that, my time's expired, Mr. Chairman. I 
yield back. Thank you.
    Chairman Weber. You actually have some time, Mr. Hultgren, 
if you'd like to follow up on the second part of that question. 
I think we're going to go for a second round of questioning 
here, if that's all right with--you don't have any questions? 
You're good? Okay. Well, you're out of time. But no, you have 
time if you want to follow up on that second question. Go 
ahead, take your time.
    Mr. Hultgren. Why don't we just communicate with your 
office, if that's all right?
    Mr. Burns. That would be fine.
    Mr. Hultgren. We'll get some questions to you if you don't 
mind responding to those. We just want to get some 
clarification there and make sure again we're recognizing how 
innovation is so important but also how regulation can either 
encourage innovation or hinder it, and we want to make sure 
that while we're doing everything to keep things safe, we're 
also doing everything to see potential advancement and taking a 
leadership role in the world.
    So thanks, Chairman. I'll yield back, but we will follow up 
with some written questions. Thank you.
    Chairman Weber. I thank the gentleman, and I do have 
another question that I wanted to get answered if I could, Mr. 
Burns, and that would be, reading through the different--you 
know, the different hours, if you will, the NRC has charged. 
Decommissioning was one of them. How many decommissioned plants 
do we have in the United States?
    Mr. Burns. Well, we've completed decommissioning or 
oversight of decommissioning of a number of very early 
generation plants, and I think currently there's something like 
five--I think five are decommissioning. There may be a few more 
than that currently.
    Chairman Weber. Okay. And do you get involved with the 
Navy's decommissioning of their different vessels?
    Mr. Burns. No, I don't believe so.
    Chairman Weber. No? Okay. Recently we had an older ship 
come to Galveston, where I represent, where they were 
dismantling it and there was a lot of talk about that, so--
okay. Well, just for the record, I appreciate you all. I think 
that the idea of the NRC working with the DOE will give you all 
a leg up on watching this new technology kind of unfold, as it 
were, and so that when you're involved in that process, it'll 
actually help.
    And with that, I'm going to recognize the gentleman from 
California--I'm sorry. The gentleman from--are you good? Okay. 
You don't want to violate the witness's rights anymore? Okay. 
Good. The gentleman from California, Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much. Well, first let me 
ask you, how long does a--when you approve a nuclear power 
plant like you've been taking about, how long is that actually 
functioning? Ten years, 20 years, 30 years, 40 years?
    Mr. Burns. Well, under the Atomic Energy Act, for a nuclear 
reactor, a license may be issued for an initial term of 40 
years, and it can be renewed. We have about 75 of the current 
plants of the current fleet that have--their licenses have been 
renewed. So the----
    Mr. Rohrabacher. Once they build a plant, how long is it in 
operation?
    Mr. Burns. Well, it can be--much of the fleet has been or 
is approaching 40 years, and a number--some of the plants have 
gone into the license renewal----
    Mr. Rohrabacher. Let me note, Mr. Chairman, that I think 
it's outrageous then that we are approving any new light-water 
reactors. That means we're stuck with them for 40 years, and 
quite frankly, it's old technology that's dangerous, and for us 
to be putting Americans, 40 year future generations of 
Americans in that danger is absolutely ridiculous, and 
especially when we have a number of companies, people with good 
reputations who tell us we can build a safe reactor and we 
haven't been able to get through the system in order to build 
our prototypes that are a safe alternative. And I just wanted 
to be on record saying that.
    Let me ask you this, and we've been told this. This is not 
about necessarily a policy but maybe a mindset when these new 
reactor people are coming forward. They're saying that 
basically we're sort of in a vicious circle in dealing with 
this regulatory process in that it's holding back significant 
improvements because--and this is what they perceive, not 
necessarily a policy but a mindset that the NRC won't review an 
application without committed customers in the loop. So if they 
don't have someone already there saying we're going to finance 
this, then they--people don't take them seriously, the NRC, and 
the--if they are not taken seriously because they don't have--
that just means the NRC is waiting for the customers but the 
customers are waiting for the NRC because they can't--they 
won't--the people in the money world won't put the money up for 
something that hasn't been at least looked at and given initial 
approval by your organization. So we're sort of in I guess what 
you would call a catch-22. I remember Joseph Heller's book 
about this World War II pilot and all of the things he went 
through. Every time there was something to get done, there was 
a reason why you couldn't do this but there was a reason you 
had to do it.
    So aren't we--does that mindset exist? If it does, are we 
going to change that?
    Mr. Burns. Well, Mr. Rohrabacher, what--the obligation we 
have now is, we're required to recover 90 percent of our 
appropriation through fees, and so basically somebody can come 
in, and I think that some of their difficulty, is coming in, 
paying the fee for the design review before they may have a 
customer or before they have sort of secure financing. You 
know, I acknowledge on the other side that that can be an issue 
for them, and I think that's part of what this Committee is 
trying to explore.
    The other piece of it is, it's really a question on 
priority of design review because, again, as we have an 
appropriation, we don't have unlimited resources so that if 
there isn't a customer for a particular design, that means it 
may not have a priority. But, for example, currently we have 
accepted the design--we do have a design certification under 
review for which there isn't a current customer in the United 
States. That's because we can--again, they're willing to put up 
the fees and we can accommodate within the current resources.
    So there may be ways to address that that sort of go 
perhaps beyond what the NRC's role----
    Mr. Rohrabacher. There's obviously a block somewhere when 
for two decades now I have been told by people in industry that 
we can create a safe alternative to the current type of nuclear 
reactor, and for two decades now been seeing these people come 
to my office with really very brilliant people, people who have 
been involved in the nuclear industry, saying we can build 
these modular reactors in this way or that way or this way, and 
these are not fly-by-night people. These are very solid 
engineers. And yet they've made no progress towards even making 
a prototype. There's a fly in the ointment here. There's a 
roadblock there somewhere. I think what we just discussed is 
part of it. Perhaps we need also to make sure that we are 
committed not just in the NRC but the Department of Energy as 
well, that we need to be committed as a country to getting this 
job done, to making sure after a certain number of years, we've 
going to have a number of prototypes to choose from, and 
especially let's not keep our people for 40 years in the future 
dependent on a dangerous source of electricity that could be 
replaced by something that's less dangerous.
    Thank you very much.
    Chairman Weber. All right. I thank the gentleman.
    I want to thank Chairman Burns for your valuable testimony 
and the Members for their questions. The record will remain 
open for two weeks for additional comments and written 
questions from Members. The hearing is adjourned.
    [Whereupon, at 9:56 a.m., the Subcommittee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by The Hon. Stephen Burns
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                              Appendix II

                              ----------                              


                   Additional Material for the Record


<SKIP PAGES = 000>

        Document submitted by Subcommittee Chairman Randy Weber

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
